Supremo Court. U.S.
FILED

JUL 1 7 2020
No.

OFFICE OF THE CLERK

Jin.

IN THE
SUPREME COURT OF THE UNITED STATES

- PETITIONER
(Your Name)
vs.

DaOcs.I O. CJaabc

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

dP nelo

VoRk- Cojll&x. afL/Sjipt&ls—________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
f-JmaA f

-Jflcjinu -

(Address)
phniaa , hkixj YcftJf - /%Qo?s
(City, State, Zip Code)

(Phone Number)

SOC>

t

QUESTION(S) PRESENTED
I.

WAS DEFENSE COUNSEL INEFFECTIVE FOR
CONSENTING TO THE PROSECUTOR'S EXTREMELY
UNTIMELY REQUEST FOR A DNA SAMPLE—A MOVE
THAT THE APPELLATE DIVISION DETERMINE DIDN'T
GREATLY PREJUDICE ME, EVEN UNDER FEDERAL STANDARDS.
STRICKLAND V. WASHINGTON, 466 U.S. 668,694. U.S.
CONST. AMENDS. VI. XIV.

<

II.
UNDER FEDERAL STANDARDS, DID TRIAL COURT
VIOLATE MY DUE PROCESS RIGHT TO CONFRONTATION
BY PRECLUDING DEFENSE COUNSEL FROM CROSS-EXAMINING '
A KEY WITNESS ABOUT A PRIOR ARREST. CONTRARY TO THE
APPELLATE DIVISION FINDINGS. DELAWARE V. VAN ARSDALL,
475 U.S. 673, 678-679. U.S. CONST. AMENDS. VI. XIV.

III.

DID THE CUMULATIVE EFFECT OF THE PROSECUTOR'S
REMARKS, THAT THE APPELLATE DIVISION DEEMED HARMLESS,
DEPRIVE ME OF MY DUE PROCESS RIGHT TO A FAIR TRIAL,
UNDER FEDERAL STANDARDS. U.S. CONST., AMEND. XIV.

V.

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
f ] All parties do not appear in the caption of the case on the cover,page. AM of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
1. Alaska v. Davis, 415 U.S. 308,
94 S. Ct. 110511974].

p.20, p.22

2. California v. Schmerber, 384 U.S. 757,
86 S. Ct. 1826[19661 . . .

p. 1 3

3. Dechristoforo v. Donnelly, 416 U.S. 637,
94 S. Ct. 1868[1974] . .

p. 26

4. U.S. v. Mesareosh, 352 U.S. 1,
77 S. Ct. 1 [ 1956] . . .

p.23

5. Wainwright v. Darden, 477 U.S. 168,
106 S. Ct. 2464[1986]..

p. 26

6. Washington v. Strickland, 466 U.S. 668,
104 S. Ct. 2052{1984] . . .

p. 1 4

7. Beasley v. U.S., 102 F. 3d 1440,
[8th Cir. 1996] ..........

p. 1 6

8. Boucher v. Friedman, 568 F. 3d 1119,
[9th Cir. 2009] .......................................

p. 1 3

9. Director v. Andrews, 2017WL6065748, T DC-Lid
U.S. District Court E.D. Texas . . . .

p.22

10. Dunbar v. State, 2020WL2060275,
[Court of Appeals of Arizona, Div 2] . . p.20
11. Schuab v. U.S •

9

886 F. 2d 50911989]

.

p. 1 9

12. A.B.E. A., Matters of, 56 N.Y. 2d at 296,
452 N.Y.S. 2d 6[1982] .................

p. 1 4

13. Ashwai v. People, 39 N.Y. 2d at 111 [1986] . . .

p.26

14. Calabria v. People, 94 N.Y. 2d 519,
727 N.E. 2d 1245[2000] .

p.24

15. Carbrano v. People, 301 N.Y. 39,
92 N.E. 2d 871[1950]

p.24

16. Crimmins v. People, 36 N.Y. 2d 230[1975] . .

p.25, p.29

17. Fomby v. People, 103 A.D. 3d 28,
956 N.Y.S. 2d 683[2012]

p. 1 3

18. Yazum v. People, 13 N.Y. 2d 302
196 N.E. 2d 263[ 1 963 3 .

p.1 6

(1 )

r*

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

19. Brightley,v. People, 56 A.D. 3d 314,
867 N.Y.S. 2d 90(1st Dept. 2008) . . p.19
20. Flores v. People, 153 A.D. 3d 182,
62 N.Y.S. 3d 68(2nd Dept. 2017) . .

. . p.25

21. James v. People, 147 A.D. 3d 1211,
48 N.Y.S. 3d 524(3rd Dept. 2017)

p. 1 6

22. Loftin v. People, 71 A.D. 3d 1576,
896 N.Y.S. 2d 789{4th Dept. 2010) .... p.22
23. Moco v. People, 176 A.D. 3d 644,
111 N.Y.S. 3d 586(1 st Dept. 2019) . .

. . p.22, p.23

24. Redd v. People, 141 A.D. 3d 546,
35 N.Y.S. 3d 402(2nd Dept. 2016)

p. 26

25. Robert T • / Matters of, 220 A.D. 2d 434,
631 N.Y.S. 2d 915{2nd Dept. 1995) .... p.20
26. Rutledge v. People, 179 A.D. 2d 404,
578 N.Y.S.2d 162(1st Dept. 1992) . . .

p.26

27. Shaun C * t Matters of, 169 A.D. 2d 406,
563 N.Y.S. 2d 822{1st. Dept. 1991) .... p.23
28. Smith v. People, 143 A.D. 3d 31,
37 N.Y.S. 3d 4{1st Dept. 2016)

p. 1 8

29. Smith v. People, 288 A.D. 2d 496,
733 N.Y.S. 2d 237(2nd Dept. 2001) ....

p.26

30. Smith v. People, 95 A.D. 3d 21,
940 N.Y.S. 3d 373(4th Dept. 2012) ....

p.13

31. Wearen v. People, 98 A.D. 3d 535,
949 N.Y.S. 2d 170(2nd Dept. 2012) .... p.16

(2)

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

32. Cherry v. People, 34 Misc. 3d 1235(a)
950 N.Y.S. 2d 610[Sup.Ct.Kings County] . . . . p.17

STATUTES AND RULES
1. Crim. P.L. §30.30 [Mckinney] ..............................

. p. 1 7, p.19

2. Crim. P.L. §110.120.05(2)

. p.11, p.12

[Mckinney] ....

3. Crim. P.L. §125.25(1) [Mckinney] .....................
4. Crim. P.L. §240.40(1)(2)(B)(V)

[Mckinney] . . .

. p. 1 1
p. 4, p. 1 3, p.17

OTHER
"Successful
Nuclear DNA Profiling:Rootless Hair Shaft's:
a'Novel Approach", .int. j ... legal.med. [ 201 8 ]
. . p.15
1 32.1 07 ............................................................. . . .
2. NYC Office Chief Medical Examiner,Forensic Biology
Evidence & Case Managment Manual, at 10.13, 11.13,
12.13, 13.13[Effective 9/23/19] .................................. P-15

TABLE OF CONTENTS

1

OPINIONS BELOW

2

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4
16

REASONS FOR GRANTING THE WRIT

31

CONCLUSION

INDEX TO APPENDICES

APPENDIX A - Decision & Order of The State of New York Court of
Appeals{Feinraan j.) affirming order of The Appellate
Division, First Department, entered January 28, 2020.
APPENDIX B - Decision & Order of The Appellate Division, First
Department affirming a judgment of The Supreme Court,
Bronx County, rendered on November 13, 2013.
APPENDIX C - Excerpts of Trial Transcripts
APPENDIX D - Court Appearances - {2011

APPENDIX E - Motions/Brief filed - (2009

201 2}

2017}

APPENDIX F - Police Reports, Lab Reports, Jury Note, Sentence &
Commitment Form

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays

that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ } For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
, ,
__: or.
[ ] reported at---- -------------------- —
,
[ 1 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ } has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix _£
M" reported at £k»k v.
V? AAoael; or,
[ ] has been designated tor publication but is not yet reported: or,
[ ] is unpublished.
The opinion of the AMWd-fa /WnuvX------------ court
appears at Appendix
to the petition and is
(4 reported at
or>
i ] has been designated for publication but is not yet reported; or,
| ] is unpublished.
1.

to

to

JURISDICTION

[ ] For eases from federal coarts:
The date on which the United States Court of Appeals decided my case
was____________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
.
, and a copy of the
order denying rehearing appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[*f For cases from state courts:
The date on which the highest state court decided my case was /fcwiV A7t^c9iT)_
A copy of that decision appears at Appendix £...—.
[ ] A timely petition for rehearing was thereafter denied on the following date:
...... ...... ...... ..... ................, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including .......
(date) in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U, S. C. § 1257(a).

(2)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
/1i. United States Constitution, AM. VI
2. United States Constitution, AM. XIV

(3)

p»13r p. 1 5,
p.20, p.23
p.13, p.15,
p.20, p.23,
p.24, p.26

STATEMENT OF THE CASE
Police officers arrived to building 260-300 on east 161st. street
immediately following a shooting incident within the building that
occurred on february 8, 2009 at approximately 3:20 ajn., resulting in
the victim(Brian McfCray) dieing from his injuries & another victim

*

(Luis' Lopez) was shot, he was taken to the hospital & later released
soon after with minor injuries that healed in a week following the
this incident, (see: C-41, C-42). One of the officers who first arrived at
the scene(P.O. Boone) interviewed the only eyewitness(Luvenia Staples)
about the incident. In that interview ms.staples told officer boone, she
don't know who the shooter was.
At approximately 12:10 p.m ♦ r detective o'brien arrived on the scene &
was informed by other detectives to check out the trash compactor room
because a maintenance worker directed them to go in it. There, he
discovered a black bag with two shotguns* & a bag containing various
clothing with blood on it*. After these items were examined, photographed
★

At trial, mr.lopez stated he could not recognize who the shooter
was when he went to the front of his apartment door & looked through the
peephole, (see: C-42). At that moment, all he saw was a black man with
a hood up over his head when the shots were fired in the apt. door's
keyhole,(see: C-43).
'fc
At approximately 4:15 a.m * t within a half hour after the interview she
had with P.O. Boone, ms.staples had another interview with a nighwatch
detective(MIcheal Cullen). In that interview, she maintained her initial
statement she told p.o. boone, that the shooter had on a mask because it
happened so fast & the guy didn't say anything,(see: F-1). Then throughout
the course of the investigation leading up to her testimony at trial, she
gave three more additional statements that were inconclusive with her
initial statement,{see: C-51 - C-54, F-2). Including her stating at trial
that when she gave another statement at the police precinct to the case
detective, she didn't even know why she mentioned my name,(see: C-49).
*On february 9, 2009, criminalist amy dorsey received the two firearms &
four shotshells recovered from the crime scene & after conducting a
fingerprint analysis on both the firearms & the shotshells, no fingerprints
(continued . . .)
(4)

STATEMENT of THE CASE
vouched' & packaged, it was rushed to the office of chief medical
examiner(hereinafter o .c.m.e.) with a request for analysis on all
items ! Detective o'brien was then directed to go upstairs to the
5th fir. of the building & retrieve a few buccal swabs from the blood
dots that were discovered by law enforcement. He recovered a total of
three buccal swabs, one near apartment 5f & the other two near the
compactor room.
Later that day, after standing downstairs for approximately 14 hrs.
after the shooting incident, ms .staples received a call from detective
Mullarkey(case detective) asking her to come to the precinct. When she
got there, both detective mullarkey & detective smith took her in a
identification of
interview room & she told them she could not make no
the shooter, detective mullarkey then "banged on the table" & accused
C-55, C-57).
her of "lying" about not knowing who the shooter was,(see:
That's when she said, "yeah I know" & she "gave the name"(see: C-58).
DMV photo of
Detective mullarkey then left the room to go retrieve a
myself(printed 2002) & she identified me.

were found on the operable firearmlthe mossberq) or any of the shot
shells, (see: C-66, C-67). On the inoperable firearm!^Lse Slits
fingerprints were recovered on the stock of the gun. those prints
were sent to detective arthur Connolly for compar-xscn/rdenttirrcatron
purposes & to determine if the prints had any value or not, (see. C
*ludae Clancv allowed over defense counsel objection, a non license
detective(arthur Connolly) to testify about the comparison he made with
the digital print he recived from amy dorsey S compared it to a ten
print card of my own hand, (see: C-b9, C-/J, C /i).
* *. annrnximatelv 5:15 a.m., detective Paul Brown arrived on the scene
& did aPdusting for possible latent fingerprints at the scene; the
inferior r«?erioJ of the staircaselo stairwell) door; the interior
(continued . . . )
(5)

STATEMENT OF THE CASE
At approximately 8:15 p.m • t detective streicher under court orders,
arrived at apartment 5f to execute a search after he conferred with
detective mullarkey & he requested that detective streicher pick-up
*

any DNA. Detective streicher then began taking photographs & he sketched
the apartment. All the pictures he took of the area containing alleged
blood dots or splat ter [the dining room rug, the bedroom closet door &
the bedroom wall] he swabbed them & he also for serological purposes,
Ar

took a hair brush & a hair pick from my bedroom (see: C-6S).
portion of the security door inside^the security booth area. There were
no latent prints recovered from the scene,{see: C-39,C-4Q).
'f?

Criminalist Amy Dorsey's testing she performed on the operable gun
was subject to re-examination by criminalist raanishi agarwal on
july 25, 2012. This was due to a corrective action that was taken
out on her in one of her cases, involving her missing a print that
was considered to have value, leading all her work to be re-exam, (see: C-63).
Ms.Agarwal stated upon re-examing the gun she encountered rust. Even
though she was still able to see dorsey’s initials on the gun & concurred
with her findings, (see: C-62). The rust itself made it impossible to
retrieve any fingerprints or observe any,(see: C-64).
*

On September 19, 2013, prior to trial, there was a discussion in court
about the evidence that was destroyed in a storage facility(erie basin)
that it was held in due to the flooding caused by hurricane sandy in
October 2012. The evidence that was destroyed includes: all the swabs
taken by the crime scene detectives at the scene & all three swabs
criminalist amy dorsey took at the crime lab when she was examing the
shotgun everything that was vouchered & all the items recovered from my
bedroom. The property that wasn't affected was the 23 shell casing, the
morgue bullets, one of the two shotguns (the ithaca) & the DNA swabs that
were obtained from me on july 17, 2012. Trial counsel ms.tobia position
on this issue was because the evidence was destroyed, in particular,
the swab that was taken from the pump action area of the alleged
murder weapon, there's no way now she can challenge independently
that DNA finding, especially given the time that she was appointed
to me as counsel,(see: C-l - C-8).

(6)

STATEMENT OF THE CASE
*

On april 6, 2009, Patrick L. Bruno Esq • f was assigned to this

case as 18b counsel. On july 27, 2009, mr.bruno filed an omnibus
motion. On august 18, 2009, Joshua Gradinger, the assistant district
attorney(hereinafter prosecution) at the time representing the people
received a copy of Mr.bruno’s motion. Prosecution didn’t respond to
:k

the motion until 7 months later on march 2, 2010. On may 10, 2010,
honorable judge raymond 1. bruce, decided & order that all three
request by counsel be granted but denied the request for any release
of the grand jury minutes, deeming the evidence before the grand jury
was sufficient.
On january 31, 2012, mr.bruno announced he was ready for trial, the
people wasn't & judge margaret 1. clancy ordered an adjournment. On june
8, 2012, the people in a discovery motion moved pursuant to c.p.l.
§240.40(2)(B)(V), for the court to mandate that I provide a saliva
sample, attached to the motion was the DNA profile that was developed
on april 9, 2009, as a unidentified male donor A, waiting for comparisons
upon submission of an oral swab from the suspect, [Rasheen Gamble] (sse: £-18 E-21). On june 18, 2012, judge clancy ordered that I produce a saliva
sample; that it is necessary pursuant to c.p.l. §240.40(2)(B)(V) for me
to submit one,(see: £-22).
On july 12, 2012, through his partner, Anthony Ventura Esg * # waived
my appearance to show up in court & consented to the people s motion to

Mr.Bruno made no demands for any written reports or documents concerning
any forensic testing, pursuant to c.p.l. §240.90, nor any DNA profiles
pursuant to c.p.l. §240.40(1). This omnibus motion was the only motion
mr.bruno filed in the 3 1/2 years he represented me.
(7)

STATEMENT OF THE CASE
compel. On july 12 2012, it was discovered by the court's that I refused
the oral swabbing because I didn't have any knowledge of the order & I
wanted to speak to mr .bruno, (see D-6 ). At the next court appearance on
july 17, 2012, mr.bruno told me that the DNA swabbing will be done in
the holding cell I was in. Mr. Adam Oustatcher, the prosecutor who began
taken over the case on behalf of the people, had a detective in place.
Mr.bruno stated judge clancy ordered it & that if I still refused, I
would be subject to a force order,(see: D-9). He then went before the
court & stated I was ready to fully cooperate with being swabbed by
the detective, leading me now to submit a saliva sample,(see: D-10).
On September 18, 2012, the results to the DNA buccal swab[FB12-00984]
&

the DNA profile male A donor[FB09-00827]* that was created came back

a positive match. At that moment, I was seeking for new counsel because
I felt he wasn't fighting for my rights. Judge clancy stated that mr.bruno
in the bronx & that
is one of the finest most experienced attorney's
attorney's like him be on trial, so if she was to appoint me a new lawyer,
looking to take this
they're not going to be ready in january when she’s
case to trial. Also since he's been on the case for 3 years, it's in
my best interest to stay with him, she's not prepared to give me a new
attorney,(see: D-13).
On October 24, 2012, at a unassigned court appearance, judge clancy

"^Criminalist IV Christopher Kamnik stated
trial that he received 3
t-hat contained skin cells from criminalist amy aorsey wna
Stld Sole samp?e swaEfon the grip of the operable gun, indicating
located those sample swa
non-stain area on the pump of

III Tnl

1SSTrlglerforina?ysil<see: C-60, but it was never done

he stated he don't even know who those skin cells belong to, (see. C(8)

).

STATEMENT OF THE CASE
Stated she wanted to resolve this issue concerning me wanting another
lawyer now. Mr.bruno acknowledged that he had "admittedly been very
busy with other homicides” & "that he would withdraw from the case &
asked the judge to assign another counsel. Judge clancy stated she s
going to grant my request for new counsel & informed mr.bruno to make
At

a copy of his file , he stated he would/{see: D-17).
On november 14/ 2012, maria tobia esq. appeared in court as newly
appointed counsel. It was sometime in September of 2013, ms.tobia
received pieces of the discovery including all the vouchers before trial
initially started & she went to mr.oustatcher office to examine the
ballistic evidence that was available, specifically all the vouchered
evidence including the clothing, that’s when she was told for the first
*

time that the property was unavailable.
Trial
On September 19, 2013, defense counsel went before the jury in her
opening statements to explain to them, although this shooting was
horrifying & incredibly sad . . . "don’t take those emotions & leave
your brain at home”.

. "you will see how ms.staples behaves in the

video surveillance, how she doesn't go over to mr.mccray & see how he's
doing after the shooter leaves". . ."you will hear about the prior

mr.bruno four times trying to get a response to better prepare her
for trial, but he never responded back, (see: C-9 ).
*0n October 9, 2013, during the charge conference at trial, the people
stated that ms.tobia never filed any request to preserve evidence or made
a demand for discovery to make it available to her for inspection as soon
as she got the case, despite her saying -she did, it lust never happe
(see: C-1 3 ).
(9.)

STATEMENT OF THE CASE
statements that she made & you will hear everything about what she did
afterwards". . « "don't give her a pass."(see: C-14).
On October 3, 2013, during the cross-examination of prosecution single
witness ms.staples, defense counsel after further research, sought to ask
ms.staples if she had assaulted & robbed someone stating, that the case
was dismissed but it wasn't dismissed on the merits because 30.30 is not
a dismissal on the merits,(see: C-10). Proseecution opposed any questioning
regarding the 2012 crime. According to prosecution, the A.D.A. who handled
ms.staples case, "the case was ultimately not prosecuted because the
complainant in the case kept switching his story between ms.staples telling
someone to hit a kid & ms.staples being an eyewitness to the crime,(see: C-10)
Based' off of defense counsel information of this arrest, trial court
prohibited any inquiry,(see: C-11).
On October 9, 2013, prosecution rendered his summation & during his
closing arguments he discussed the phone call made to my mother & asked the
jurors to consider what "the defendant -would have said to his mother if he
Defense
really didn't do this shooting, "knowing what he knew at that time"
counsel objected stating that there was no evidence of what I "knew at that
time"{see: C-22). The court sustained the objection and the prosecutor
continued, "what would an innocent man say to his mother? I submit to.you^
the first thing an innocent man would say to his mother is I didn't do it”.
Again defense counsel objected,& the court sustained the objection that there
was "no evidence in the case".
Then prosecution proceeded immediately to comment on my failure to call
911 after the shooting:

MR.OUSTATCHER: This is the defense
attorney, page 472. She's questioning
Detective Smith:

. (10)

STATEMENT OF THE CASE
"QUESTION: Now, Detective, you yourself
today, before you testified, you listened to
a 911 call, right?"
"ANSWER: Yes."
* ★ ★

"QUESTION: One of the callers was in
fact a male caller, correct?"
t"ANSWER":] There was an interview done
by a detective that says he spoke to a
gentleman, it appears his name is Juan
Amante? He says he called."
. . . The calls I heard, the calls I
heard today were three females."
MR.OUSTATCHER: Okay. The only male
caller was amante. There was no male caller
named Rasheen Gamble. If the reason the
defendant was bleeding, had some innocent
explanation, if he was a victim, you would
expect a reasonable person, an innocent
person. to call 911? (emphasis added).
At this point, the court sustained defense counsel objection &
struck the argument,(see: C-23, C-24). The court reiterated her ruling
during a sidebar that followed:
. ... It is fair for you to argue that ^
there's not an innocent explanation of him,
of his flight, and that's consciousness of
guilt, I have no problem with that. But
there's no factual basis in the evidence.
You're going to argue from his point, I
assume, that he was bleeding, but all of
this other argument about calling 911, it's
either not connected up for me right now or
I don't see where it is in the record to
make the argument,(see: C-25).
Prosecution then made several remarks to the effect that there was
"no innocent explanation" for blood droplets near my apartment, "no
innocent explanation" for blood on the same shotgun used to shoot

(H)

STATEMENT OF THE CASE
at Mr.lopez * s door - *see: C-26 ) "no innocent explanation" for my DMA
on a shotgun,(see: C-27) "no explanation of how genetic material
got on (the two shotguns]",(see: C-28), R "no innocent explanation
for blood in the fifth-floor hallway,(see: C-29).
Prosecution then argued:
. . . And as much discussion as you heard
this morning about what could have been done
and what should have been done, there.s ot^e
thing you didn’t hear and I talked_about it
a lot. What you did [not] hear this morning
and that's because it does not exist, was a
reasonable innocent explanation for how all
(
this evidence came to be. How does the defenant s
blood get on the mossberg? How did the defendant s
blood get on the ithaca (sic]? Why is defendant’s
blood in that stairwell? why is the defendant s
blood all over the fifth floor hallway? Why did
the defendant flee? If the defendant is not
within all this
guilty of these crimes,....
information before you, you expect to see some
innocent explanation evidence of how it all
got there"
MS. TOBIA; Objection.
THE COURT: Sustained.
The burden remians at all times on the
people. No obligation at all on the defense
to provide any explanation for any MS. TOBTA': Judge, I’ll -need- to--ma-k-e- -an .
application at the end.
THE COURT: Go ahead.
MR. OUSTATCHER: You’re going to draw
conclusions when you get back there and
start talking, you’re going to find as you
deliberate on this case that there is no
reasonable and logical and innocent explanation.
MS. TOBIA: Objection. Move to strike.
THE COURT: Overruled.
(1. ?

STATEMENT OF THE CASE
Make the argument from your evidence,
(see: 029, 030) (emphasis added).
At the

end of the people's summation, defense counsel moved for

statements,(see: C-31 ).
a mistrial, citing prosecution's burden-shifting
"looking at
Prosecution countered that it was permissible to say that
innocent explanation”,(see: C-32).
the evidence in total there simply is no
The court reserved her devision.
renewed her mistrial request &
The following day, defense counsel
instruction that the defense had
alternatively, requested a curative
, including why his blood was on the
no obligation to explain anything
argued that he was only asking
shotgun,(see: C-34). Prosecution again
before them,{see: C-35).
the jury to analyze "the totality of the information
of his remarks had been
In response, the court told prosecution some
" but that these comments were "juxtaposed" within a
phrased "that way
there's one thing you didn't hear,
few sentences of you saying, you now,
the defendant's right to
including this morning . . [Wjhen it comes to
testify, the burden on the people, that's

sacrosanct and you have to

court denied the mistrial
stay well clear of that",(see: C-35). The
motion,(see: C-37)♦
reconsideration,
During this colloquy, the court also indicated that, on
what the defendant did or
she was reversing her prior ruling ' concerning
the absence of a 911 call*,(see: C-37, C 38)*
did not say to his mother or
of position in favor of the
The defense objected to the court's change
prosecution,{see: C-37 ).
Based on the new ruling t

the court then instructed the jurors the
r

(13)

s

STAT®*®0 OF WE CASE

following:

One quick thing before I move to my
instructions on the law:
summation, when
During ADA Oustatcher's
what the
he spoke to;you
t0 his
defendant did or dxdno
Y
call,
mother,
that
is
f
“f
*
i„
I sustained objections to certar^^
arguments that he
that
further review^ I
d those are
ruling and, for cn®
oaae 1019,
to arguments made as t p 9
.,.
line 16.* And those argumentL
temain in the
/as

well as any arguments that were
by either counsel that were nor
sustained in your deliberations.
trial for murder in
convicted by a jury
2013,
I
was
On October 10,
attempted assault in the
degree(penal law §125.25(1]) &
the second
120.05(2]) in the supreme court of the
second degree(penal law §110sentenced to an
county(clancy j.l & was
of
new
york,
bronx
state
of 25 years
indeterminate term of imprisonment
indeterminate term of imprisonment
with
another
second degree
assault in the
of incarceration for attempt
one third to four years
consecutive,(see:F-19).
second degree, running both charges
court of the state of new york,
On april 24, 2014, the supreme
to appeal on the
- first department, granted me leave
division
appellate
2020, the appellate division affirmed
28,
original record. On January
second degree(penal law §125.25(1]) &
of
murder
in
the
the conviction
innocent man

*This line o* the h-njcript states^^hat^wcul^an^ innocent man

to hi*trs:rL,1th:riViSn?t «.*

say
would say

(14)

STATEMENT OF THE CASE
§110-120.05(2]) with
attempted assault in the second degree(penal law
denied the request for the
an opinion. The appellate division also
for oral argument of january 7, 2020 to
direct appeal on calendar
-se reply
be taken off the court's calendar

brief, people v . gamble, 179 a.d. 3d 580(2020] &
denied on april 27, 2020,(feinman j.3>
of new york court of appeals was
people v. gamble, 35 n.y, 3d 970(2020],

(15)

REASONS FOR GRANTING THE PETITION
i.

DEFENSE COUNSEL WAS INEFFECTIVE FOR
CONSENTING TO THE PEOPLE UNTIMELY
REQUEST FOR A DNA SAMPLE — A MOVE
THAT GREATLT PREJUDICE ME. D.S. AMENDS
VI, XIV.
I want

to first bring to this court's attention that under both

state & Federal courts have stated that a buccal swabbing inside of the
mouth for saliva directly implicates a defendants fourth amendment right,
(see: People v. Smith, 95 A.D. 3d 21[4th Dept.][201 2]; People v. Fomby,
103 A.D. 3d 28[2012]? Schmerber v. California, 384 U.S. 757[1966];
2009,
Friedman v. Boucher, 568 F. 3d 1119[9th][2009]). On february 9,
amongst the evidence that was collected in this case, pursuant to a.
search warrant issued by the local magistrate(fabrizio j.} to my apartment,
for serological purposes, the N.Y.P.D. collected my hairbrush & hairpick,
(see:C-67). On june 8, 2012, the people seeked an order to permit the
taking of a DNA saliva sample pursuant to c.p.l.§240.40{ 1 ) for comparison
purposes to the evidence collected.
The people did not serve & file there motion however, until 31/2
years from the day I was arraigned on april 30, 2009. Yet, in absence of
any good basis shown for their delay in filing the motion, trial court
(clancy j.) granted the people's motion,(see: E-22) in violation of
c.p.l.§240.50[2] [B] [V] statue. To make matters worse, when the people
seeked to obtained this saliva sample, the motion itself, never mentioned
the necessity for obtaining a saliva sample considering they was in
possession of my DNA collected from my apartment. It didinot even set forth
sufficient grounds to obtain an oral swab, despite there knowledge that
they were in possession of my DNA and four other "considered blood samples
collected from my apartment, for example, an affidavit; from an analyst
(16)

REASONS FOR GRANTING THE PETITION
from the O.C.M.E. explaining the complications they're having with the
/

evidence collected and another sample from the defendant would be
necessary.
The people simply chose not to have the DNA samples tested, and
decided to wait 3 1/2 years to seek another sample, this time through
an unnecessary intrusion into my body. This alone was a violation to
my fourths fifth amendment right, even if the motion had been timely
served S filed. Trial court erred by not considering any other avenue
to further this,(see: Matters of A.B.E. A, 56 N.Y. 2d at 296[1982]
(stating- before a court may compel a defendant to supply corporeal
evidence, it must consider the unavailability of a less intrusive
means of obtaining it in determining whether the order is appropriate]).
This is why I call on this court for further review because contrary
to the appellate division decision, that under federal standards following
Strickland v. Washington, 466 u.s. 668, 694(1984] where the court stated
that the defendant "need not show that counsel's deficient conduct more
likely than not altered the outcome in the case", "but that counsel's
error undermined the confidence in the outcome of trial." Defense counsel
(Patrick Bruno) consent to the people's motion to compel a DNA sample was
objectively unreasonable & prejudice the defense, also the defense of my
second lawyer because by the time she was assigned to the case, all of
the physical evidence, untested evidence{including the skin cell samples
that were found on the alleged murder weapon) was gone. Super storm sandy
hit the storage facility the evidence was held in; the delay in discovery
in this case crushed the defense. Further, the key issue in this single-

(17)

REASONS FOR GRANTING THE PETITION
Witness identification case for the jury determination was the identity
of the shooter, with this information admitted, the people enjoyed the
luxury of using it all throughout trial to establish that fact. The people
would've been without this information if defense counsel had protest to
the order for it, leaving the people no choice but to rely on the forensic
evidence collected from my apartment.
However, the problem with conducting an analysis to the hairbrush or
hairpick is that if the hair from either which grooming item didn't have
hair that included skin cells from the root it would be hard to analyze,
{ see: E.g • t Grisdale, kelly S. Et al., "successful nuclear DNA profiling
of rootless hair shafts: A novel approach", int. j. legal med[2018] 132.107[ stating - The problems of doing DNA test on hair if the samples do not
include skin cells from the root]). The current O.C.M.E. protocols say
that hair is generally not tested but that occasionally there is a request
to use pulled hair as an exemplar. Pulled hair & public hair is done in
a controlled way to make sure there is a root (follicle) to permit testing,
{see: NYC office chief medical examiner forensic biology evidence case
managment manual, at 10.13, 11.13, 12.13, 13.13[effective 9/23/19)! So it
would've been impossible for the people to conduct an analysis to the
hairbrush & hairpick. The other four blood samples that was collected
from my apartment, it must be noted that no DNA analysis was done to
determine if those samples were consisted of blood. Based off the 2009 DNA
lab report. It was documented that one of the samples was obtained from
mold off a closet door,(see: P-9). So there's no guarantee that these
"blood samples" were blood at all & without an analysis done to these

https://www1 .nyc.gov/site/ocme/serv-ices/technical-manuals page
(18)

REASONS FOR GRANTING THE PETITION
samples it was improper for the people to draw the conclusion that they
were blood & make further assumptions that any of the other evidence
collected could've been utilized*(see: E-27).
The value of the people's DNA evidence was undermined absent this DNA
order. iThe -remainder of the people's case absent this information,
consisted of testimony from a undermined witness due to the inconsistencies
in her statements concerning the description of the shooter beginning
with her initial statement,(see: F-1); the misconduct of the N.Y.P.D.
during the identification procedure they conducted with her? and her
reliability based h&r character, which should've fell under scrutiny
because of a prior arrest for assault & robbery, all questioning her
reliability. Then to the people's circumstantial evidence, a fingerprint,
that the appellate division stated was found closely near the scene
connecting me to the crime,{see: B-2). This is without contention because
the mere confirm DNA match of a fingerprint in close temporal proximity
to the commission of the crime does not, according to state & federal courts,
establish any identity of the perpetrator,{see: People v. James, 147 a.d.
3d 1211 [3rd Dept. ] [ 2017]; also see: U.S. v. Beasley, 102 F. 3d 1440
[8th Cir.][1996]).

The evidence of flight was also of limited probative

force due to the information that was admitted involving me being in a
musical band,{see: C-12: also see: §19:185. specific jury instructions,
flight from scene, handling a criminal case in new york, ch. 19., IV. Jury
Instructions & Deliberations; also see: People v. Yazum, 13 n.y. 2d 302
[1963]).
The appellate division went completely "bonkers" when they opinionated
on this issue. The second department ruled in wearen that since a DNA
(19)

REASONS FOR GRANTING THE PETITION
Sample was already collected previously, that was linked to a burglary
on july 7, 2006, for which he was charged and convicted for; they
granted wearen's c.p.l.§30.30 motion & dismissed the indictment because
the people couldn't establish why they needed a confirmatory DNA
sample when they had knowledge as of january 2007 that a DNA match was
made with the crime scene DNA sample & a DNA profile of wearen already.
The-, same issue arose in cherry, where he actually opposed the people's
motion to compel the DNA sample pursuant to c.p. 1 .§240.30(1} on the
grounds that it was untimely. The court denied .the people motion stating,
that cherry asserted that the people offered no good cause for filing &
serving the motion until 9 months after his arraignment. Cherry also
asserted that within the discovery by stipulation paperwork submitted by
the people's at the time of his arrest, he consented to a DNA buccal
swab & concluded that a swab was taken. Cherry then asserted that the
people are simply not chosing to have his DNA they already obtained
tested & now was seeking a duplicative intrusion in his body; That the
people have not set forth sufficient grounds to allow such an oral swab
to take place; that a taking of a oral swab would violate his fourth &
fifth amendment right among his federal & state constitutional right,
even if the motion had been timely served, 34 mi sc. 3d 1235(a).
This is coupled with the lack of assistance counsel demonstrated since
being assigned to this case, because he never did any discovery in this
case. Defense Counsel forewent conducting any investigations or inspections
to any of the evidence, even after trial court made the efforts to get
him the discovery from the people at a march 28, 201 1 court appearance,

(20)

REASONS FOR GRANTING THE PETITION
(see: D-1) he still didn’t review any of it. If he did, he would’ve
realized, not only a search & seizure was conducted to my apartment but
there were "blood” samples collected that was ruled out, my DNA. Knowing
this information at the very least, would've prompt him to oppose the
people's request seekin for more DNA 31/2 years after they're seizure
in my apartment.
Ironically, without doing any discovery or conducting any interviews
with any witnesses nor as the people stated at trial, "the defense never
made any request to preserve evidence",(see:C-13) he announced he was
ready for trial on January 31, 2012,(see: D-4). His reasons for not
effectively representing me was that he was busy with other homicide
case,(see: D-18). This was blatant neglect at it's highest capacity,
especially when during the pre-trial proceedings, concerns of a DNA
request/order arise. That’s critical within the meaning of the law.
Defense Counsel effective assistance was a no show,(see: People v. Smith,
143 A.D. 3d 31 11st Dept.H2016]).

II.
TRIAL COURT VIOLATED MY DUE PROCESS
SIGHT TO CONFRONT THE SOLE WITNESS
MS.STAPLES CONCERNING A PRIOR ARREST.
U.S, CONST. AMENDS. VI.,XIV.
1 would just like to make it clear to this court that the reason
trial court denied counsel from questioning ms.staples about the
assault/robbery charge was not because of the record the people made on
this issue, it was because of the record defense counsel made. The
appellate division decided the information that defense counsel discovered
(21)

REASONS FOR GRANTING THE PETITION
through a google search on these charges, that were dropped appearently
on 30.30 speed trial grounds was "speculative"(see: B-3). But this
considered "speculative" information did not provide any basis for the
appellate division to dismiss this claim in it's entirety because a
mere discrepancy or lack of information in whether the dismissal of the
charges was on 30.30 grounds was irrelevant considering the record that
the people

made, which confirmed that the charges were in fact dropped.

There was not an acquittal or a conviction nor was there a plea bargain
taken by ms.staples, making it then impossible to make an inquiry. The
dismissal was in part due to the victim failing to come forward with a
straight story. He kept "flip-flopping" his story around on whether
ms.staples was an eyewitness to the crime or she was the assailant,
(see: C-10).
The very court that refused to entertain this claim stated in
brightley, "the fact that mr.brightley's prior florida arrest charges
were dismissed due to the failure of the victim to come forward doesn’t
preclude inquiry into the matter, since the dismissal was not on the
merits",[emphasis added](see: People v. Brightley, 56 A.D. 3d 314[2008]
[1st Dept. ]). Further, both state & federal courts stated the mere fact
that the ultimate disposition of prior charges wasn't explained to
trial court, was not a sufficient enough reason to deny defense counsel
from cross-examining a witness on prior charges, because those charges
resulted in a termination. Regardless if the termination was unexplained
or not, the disposition did not result in an acquittal, (see: U.S. v.
Schuab, 886 F.2d 509[1989][stating- where the D.A. found out about the
prior arrests & was permitted to question the witness about them,

:

i

(22)
i

REASONS FOR GRANTING THE PETITION
even though the people didn't get the ultimate disposition]; also see;
Matter of Robert T • / 220 A.D. 2d 434C1995][2nd Dept.Hstating - The
district attorney ultimately terminated the prior charge for unspecified
reasons, such a termination does not constitute an acquittal or a dismissal
on the merits, which would bar cross-examination of the underlying acts]).
This is why I'm seeking further review from this court on this issue
because under federal law, though lower level trial court retains
complete discretion over whether a party could cross-examine the opposing
party on issue like this, a trial court's discretion however, should be
narrowly construed when a defendant's fundamental rights is at issue &
the confrontation right is perhaps as fundamental as any other,
(see; Davis v. Alaska, 415 U.S. 308, 316£1974]). Under the federal
constitution, a defendant has a due process right to present a defense,
including a right to effective the cross-examination of the witness at
trial,(see: State v. Dunbar, 2020WL2060275[court of appeals of arizona,
div. 2]; const, amends, vi. xiv.) that any restrictions on the right
to cross-examine a key prosecution witness can deprive me of an
important means of combating inculpatory testimony or at least
demonstrating the existence of a reasonable doubt as to guilt.
Whether this line of questioning had any material relevance in
this case is an understatement because ms.staples testimony was not
collateral to the people's evidence in part, it was crucial in
determining the identity of the shooter. It was her reliability that
kept this case from proceeding .to trial as a circumstantial case, (see: C-33)
Ms.Staples undoubtedly was the glue to the people's case. The glue that

(23)

REASONS FOR GRANTING THE PETITION
was the primary point in defense counsel’s theory in her misidentification
defense when she took aim at convincing the jury from; the beginning of
trial, "not to give her a pass". . . ."to evaluate her testimony,"
(see: C-18).
The reason why was for three factors: (1) due to the inconsistencies
in all her statements after her initial statement stating, "I don’t know
who the shooter was because he had on a mask & it happen so fast,
(see: F-1). (2).The misconduct at the hands of the N.Y.P.D * f in the way
they handled ms.staples when they re-interviewed her after I was labeled
a suspect then turned perpetrator,(see: C-55). (3) Her character, which
was hanging in the balance when defense counsel highlighted the fact
that ms,staples was a long-standing member of the community who cater
party for kids , . - „ she’s a president of the tenant board that
discussed issues dealing with drugs & violence,(see: C-19) but knowing
there’s more to the story she asked the jury in her opening statements
"to pay close attention to her actions in the video, she don't flinch,
cover her ears, she don’t check on the victim nothing . . .",(see: C-17).
The people in retrospect even threw ms.staples "under the bus"
following counsel’s analogy stating, ms.staples was downstairs in the
security booth prior to the shooting because the victim wanted to apologize
for the incident that happen to her son when he was jumped resulting in a
group of guys cutting up his coat in the lobby on the shift that he was
working on. This, prompting a fiery ms.staples to come downstairs & ask
why. nobody didn't call her to tell her what happen to her son, (see: C-15,
C-44 - C-48). Another unfavorable inference that aimed directly at her
credibility.

(24)

REASONS FOR GRANTING THE PETITION
If defense counsel was granted permission to engage into this line
of questioning concerning ms.staples prior arrest, it very well may
have tipped the balance in her credibility & the people’s case. Especially
when her involvement in this case was similar to her prior arrest, where
there was discrepancy whether she was an eyewitness or not, (see: People v.
Loftin, 71 A.D. 3d 1576[4th Dept.][2010]}. Although I can’t speculate
whether the jury, the sole judge of the credibility of ms.staples would
have accepted this line of questioning had counsel been permitted to
present it, the jurors were entitled to have the benefit of defense
counsel theory before them so that they could make an informed judgment
as to the weight to place on her testimony, ’’the glue" to the people’s
case,[see; Davis v. Alaska, 415 U.S. 308[1974]; also see; Andrews v.
Director, 2017WL6065748, T DC-1-LID U.S. District Court E.D. Texas,
Texarkana Division).
Counsel had the necessary good faith basis to ask about the prior
arrest; there was no danger that such cross-examination would go to
anything other than her credibility. The appellate division erred
tremendously in their ruling on this claim & in essence of the fact, I
believe they were a bit contradictive on this claim. It was a few short
months prior to their ruling in this case, that on October 31, 2019, they
denied defendant moco relief on the same issue when he challenged that

j

the people were in error for cross-examing him on his two prior arrest
i

where it was not ascertained whether the charges had been dismissed on
the merits, but nevertheless it was harmless; that any prejudice was
minimized by the court ’ s statement to the jury that the charges were

(25)

REASONS FOR GRANTING THE PETITION
dismissed & that the proof of the defendant’s guilt was overwhelming,
(see: People v. Moco, 176 A.D. 3d-644[1st Dept.][201 9]). The people’s
cross-examination of moco prior acts was considered harmless, without
a complete disposition of those acts.
The same similar issue happen with defendant shaun c., where the lack
of proof concerning the witness Richard Brown's prior acts wasn’t even
an issue in the case nor was it the reason why trial court precluded
defense counsel from inquirying into brown's prior acts, it was
because of the lack of relevancy to the issue at trial. This was a
factor that the 1 stdepartment reversed & remanded the case on stating,
as it pertained to brown's prior acts, "as the trier of the fact, the
court could not close it's mind to relevant evidence even before that
evidence was heard",(see: Matter of Shaun V *

t

169 A.D. 2d 406f1st Dept.]

[1991]). Concluding , although defense counsel lacked sufficient evidence
of brown's prior bad acts, the 1st. dept, decided to reverse & remand the
case because those acts were relevant to the issue at hand, even in the
face of the evidence collected in that case. The way the 1st department
ruled in my case on this issue was obscured.
In view of the fundamental nature of my rights guaranteed under
federal statues, amends vi. xi«y * t due process right to confront, I ask
this court for help to further review this issue following Mesareosh v.
U.S. 352 U.S. 1[1956] stating, "truthfulness of testimony . . . the
dignity of the united states government will not permit the conviction
of any person on tainted testimony".

(26)

REASONS FOR GRANTING THE PETITION
hi.

THE CUMULATIVE EFFECT OF THE PROSECUTOR
COMMENTS DEPRIVED ME OF A FAIR TRIAL.
U.S. CONST. AMEND.XIV.
The appellate panel erred when they ruled that the curative instruction
was sufficient to prevent any prejudice from the comments the prosecutor
made on the lack an ’'innocent explanation" for the evidence which was a
burden shift. But more importantly, when trial court considered the
prosecutor's further argument harmless concerning my failure to make a
911 call at the time of the incident, that in turn was granted permission
for the jury to consider for deliberation,(see: B-2).
In addressing the first portion of the panel's decision, it must be
noted, as this court is fully aware of

f

a court * s curative instruction to

a jury to disregard matters improperly brought to their attention cannot
always assure elimination of the harm already occasioned because of the
prosecutors persistent disregard to the trial court's ruling,(see: People v.
Calabria, 94 N.Y. 2d 519[2000][stating - The court's prompt curative
instruction did not eliminate the prejudicial effect of any misconduct
where the prosecutor persistently disregarded the trial court's ruling];
also see: People v. Carborano, 301 N.Y. 3911950]).
That's what happen here, prosecution consistent reference to there
being no innocent explanation for the DMA evidence discovered away from
the crime scene,(see: C-26, C-27, C-29). Despite trial court's sustaining
of defense counsel objections to this argument, prosection continued to
rally on that there was no reasonable, logical & innocent explanation
to the DNA evidence collected,(see: C-30). This ultimately shifted the
burden of proof on the defense. There’s no way the jury adhered the court' s
instruction to these comments because they gave it considerable weight
(27)

REASONS FOR GRANTING THE PETITION
during they're deliberations when they asked to re-hear the DNA evidence
about the DNA samples .

that was swabbed/obtained inside the building,

(see: F-18).
The second challenged portion of the people's summation, the 1st
department knew these comments concerning my failure to make a 911 call
at the time of the incident was not harmless & incorrectly applied the

1

harmless error analysis to this portion of prosecution's comments
because when errors like this arise, regardless of the considered
"circumstances" in a case, the court of appeals explained in flores that
"if in any instance, an appellate court concludes that there has been
such error of a trial court, such misconduct of a prosecutor . . ..or such
other wrong as to have operated to deny any individual defendant his
fundamental right to a fair trial, the reviewing court must reverse the
conviction & grant a new trial, quite without regard to any evaluation
as to whether the errors contributed to the defendant's conviction",
153 A.D. 3d 182[201?J quoted from People v. Crimmins, 36 N.Y. 2d 250,
238[1975].
!

Under no circumstances was the prosecutor allowed to call upon the
jury to draw conclusions which were not fairly inferable from the
evidence. For the people to ask the jurors to speculate, "what I did or
would have said to my mother if I really didnt do this shooting, knowing
what I knew at that time .... the first thing an innocent man would
say to his mother is, I didnt do it" was error, (see: C-22}. There was no
evidence showing what I knew at the time of the call. Further, it was
unacceptable for trial court to specifically instruct the jury, after
sustaining defense counsel objection to these comments, to consider such
arguments,(see: C-38). Because at this point, trial court has now given
(28)

REASONS FOR GRANTING THE PETITION
standing to these comments as legitimate argument. What’s hard to
understand is that the very court this case was first appealed to & the
court of appealsyhas condemned actions of such committed by trial court
over the years because it "greatly enhances the possibility of prejudice
to the defendant11, {see: People v. Rutledge, 179 A.D. 2d 404, 405{1st Dept.]
[1992]; also see: People v. Ashwal, 39 N. Y. 3d at 111[1976J).
So at this point I am seeking for help from this court; that the
cumulative effect of prosecutor’s comments ultimately robbed me of my
due process right to a fair trial. U.S. Const « 9 Amend XIV.; also see: Darden
v. Wainwright, 477 U.S. 1 68[1 986]. 'Following Donnelly v. Dechristoforo,
the relevant question here was whether the prosecutor’s comments so
infected the trial with unfairness as to make the resulting conviction a
denial of my due process right, 416 u.s. 637; it was. The prosecutor's
arguments from the beginning of trial during his opening statements,
making insinuations that I made an attempt to manipulate the judicial
system by ’’successfully avoiding being held responsible for the violence
I inflicted”,(see: C-16). Comments that there was no evidence whatsoever
of me making any attempt to do so

let alone, it was an improper slur

on my character. Then when he began implicating other specific rights
such as my right to remain silent, 513 F. Supp. at 958; also see;
People v. Smith, 288 A.D. 2d 496[2nd Dept.][2001], making arguments not
fairly. inferable from the evidence, (see: C-24} burden-shifting, (see: C-29,
C-30) improperly vouched for his witness(ms.staples) credibility stating,
"Ms.Staples is a truth teller". . . ."it’s not just that she was truthful,
she was accurate",(see: C-20, C-21; also see: People v. Redd, 141 A.D.
3d 546[2nd Dept.][2016]). Then trial court allowing the misstated 911
comments to be'considered for the jury,(see: C-38),
(29)

/

.

REASONS for granting the petition
The flagrant & pervasive pattern of comments from the people & the
actions of trial court deprived me of a fair trial* Following crimxnins,
my right to a fair trial is self-standing & that the proof of guilt
however overwhelming, if this court presumes it to be, can never be
permitted to negate this right, 36 N.Y. 2d 230,238.

■

(30)

j

%

.3

V

CONCLUSION

The petition for a writ of certiorari should be granted

Respectfully submitted,
f

r/L

Date:

..
•..

Tmitj

-.3

i
V *

(31)
:

A

